                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13020018                                                                         Page 1 of 1




                                                             Closeout

                  We received an allegation that a PI (Subject) 1 plagiarized in an NSF Proposaf from a journal
         article he previously published. Although copying his own text does not meet NSF's definition of
         research misconduct, we conducted a review to determine whether the Subject was requesting federal
         funding for work that had already been completed.

               Our review determined that the NSF proposal was not proposing work that had already been
         completed, but rather appeared to propose an extension of prior work along with a novel goal.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
